<html>
<title> - ISRAEL IMPERILED: THREATS TO THE JEWISH STATE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                           ISRAEL IMPERILED: 
                      THREATS TO THE JEWISH STATE

=======================================================================

                               JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2016

                               __________

                           Serial No. 114-156

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                __________
                                
                                
                                
                           U.S. GOVERNMENT PUBLISHING OFFICE
99-849PDF                       WASHINGTON : 2016                           
                               
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>  
                               
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York

                               ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Michael Rubin, Ph.D., resident scholar, American Enterprise 
  Institute......................................................    11
Jonathan Schanzer, Ph.D., vice president for research, Foundation 
  for Defense of Democracies.....................................    20
Mr. David Makovsky, Ziegler distinguished fellow, Irwin Levy 
  Family Program on the U.S.-Israel Strategic Relationship, The 
  Washington Institute for Near East Policy......................    35
Tamara Cofman Wittes, Ph.D., director, Center for Middle East 
  Policy, Brookings Institution..................................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Michael Rubin, Ph.D.: Prepared statement.........................    13
Jonathan Schanzer, Ph.D.: Prepared statement.....................    22
Mr. David Makovsky: Prepared statement...........................    37
Tamara Cofman Wittes, Ph.D.: Prepared statement..................    46

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    66

 
             ISRAEL IMPERILED: THREATS TO THE JEWISH STATE

                              ----------                              


                        TUESDAY, APRIL 19, 2016

                     House of Representatives,    

         Subcommittee on Terrorism, Nonproliferation, and Trade

                                  and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. Subcommittees will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions and extraneous materials for the record subject to 
the length limitation in the rules.
    At this time, I will recognize myself for an opening 
statement. If someone would grab the back door, I would 
appreciate it. Thank you.
    The state of Israel has always been surrounded by threats 
since its existence--threats by nations and terror groups that 
hate Israel because it is a Jewish state.
    The goal of these haters has been to eliminate the state of 
Israel, an aggression started as soon as Israel became an 
established state. Arab armies amassed on its borders to 
destroy it. But yet, Israel has continued to exist in the face 
of suicide bombers and terrorist onslaughts like no country in 
history.
    Most recently, 16 people in a bus were wounded yesterday in 
a bus bombing in Jerusalem, reminiscent of the wave of 
Palestinian suicide bombings that claimed so many lives a 
decade ago.
    In recent years, the threats to Israel have increased and 
become even more dangerous. The volatile situation in Syria and 
its transformation into a full blown terrorist haven directly 
threatens Israel's security.
    Al-Qaeda's Syrian affiliate, the Nusra Front, has at times 
literally straddled the Syrian-Israeli border. ISIS, which is 
even more brutal than al-Qaeda, controls large parts of Syria. 
Lebanese Hezbollah is heavily involved in the fighting in 
Syria, securing its valuable arms transfer corridor from its 
sponsors of no other than Iran.
    Iran has transferred game-changing weapons systems into 
Lebanon to arm this terrorist proxy including anti-ship cruise 
missiles and air defense systems and precision-guided surface-
to-surface missiles.
    Hezbollah already has an estimated 150,000 rockets and 
missiles in its stockpile. That's enough to rain down 1,500 
rockets a day in Israel for over 2 months.
    All of these weapons systems are aimed for Israel. 
Hezbollah is amassing valuable tactical experience in Syria. 
It's mastered the use of diverse weapons systems and working in 
coordination with Iran and the Russians.
    Meanwhile, there is Gaza. Israeli officials now believe 
that Hamas has completely replenished its rocket supply that 
Israel destroyed in 2014. Hamas is building a sophisticated 
network of tunnels under the Gaza Strip for the purpose of 
securing arms supply lines and using those tunnels to strike at 
Israel.
    Yesterday, Israeli officials announced the discovery of a 
Hamas tunnel running from Gaza into the Israeli territory fully 
equipped with electricity, communication lines and a rail line.
    All of these actions by all of these groups and states are 
aggression against Israel. Israel tries to defend its 
sovereignty the best it can.
    There's also a new kind of terrorism. Since September, 
Palestinian lone wolf terrorists have carried out hundreds of 
attacks against civilians in Israel. These terrorists will do 
anything to kill, stab, ram their vehicles into civilians and 
they just shoot indiscriminately.
    They are field directed by the hateful incitement of the 
Palestinian Authority. Palestinian Authority President Abbas 
proclaimed, ``We welcome every drop of blood spilled in 
Jerusalem. This is pure blood--blood on its way to Allah.''
    This latest wave of attacks has killed 34 people, injured 
over 400. Among those killed were two Americans, one of which 
is from my state of Texas, Taylor Force. He was an Eagle Scout, 
a West Point grad, and he served in Afghanistan and Iraq.
    Aside from terrorism, Israel also faces a threat that also 
seeks its ultimate destruction. In recent years, the global 
boycott, divestment, and sanctions movement has led to an 
onslaught of campaigns targeting Israel.
    This is--this movement, obviously, doesn't like the 
settlements in the West Bank. Settlements in the West Bank, in 
my opinion, are an internal matter for Israel and it is nobody 
else's business what a state decides on where people live and 
don't live. Out-of-towners, including the BDS and our own State 
Department, need to stay out of where people live in Israel. We 
certainly wouldn't like someone telling us where people should 
settle in the United States.
    And then, of course, we have the nuclear Iran deal. The 
deal makes it only a matter of time before the mullahs in 
Tehran develop a nuclear weapon.
    Given their anti-Semitic rhetoric, we all know what they 
intend to with that bomb. The $100 billion signing bonus and 
the financial boon expected with sanctions relief raise serious 
concern about the world's number-one state sponsor of 
terrorism. That's Iran.
    They will funnel more and more cash to their terrorist 
groups all over the world. Reports since the deal went into 
effect indicate that both Iran significantly has increased its 
financial support for both terrorist groups, Hezbollah and 
Hamas.
    In February, Iran announced that it would give $7,000 to 
families of Palestinians who kill Israelis, an additional 
$30,000 to every family whose home Israel demolished due to the 
family's involvement in terrorism.
    Since the nuclear deal was struck, Iran has launched three 
ballistic missile tests. The most recent one launched missiles 
marked with the words ``Israel must be wiped off the map.''
    The deal will lift the international ban on Iran's 
ballistic missiles in 8 years. It's no wonder why Israeli 
leaders call the joint comprehensive plan of action a bad deal 
for Israel's survival.
    Despite these threats, our relationship with Israel has 
become strained under current administration policies. We must 
do more to repair this important relationship and protect our 
friends and allies.
    We must make it clear that all of these actions against 
Israel are because it is a Jewish state. Israel and the United 
States share common values. We must recognize that the threats 
that confront Israel really affect the United States as well.
    The same terrorist group that wants to destroy Israel first 
wants to destroy the United States. The United States must show 
that it is partnered with Israel in its self-defense, and 
Israel, in the meantime, better keep its powder dry, and that 
is just the way it is.
    I will recognize the ranking member on the Terrorism 
Subcommittee, Mr. Keating from Massachusetts.
    Mr. Keating. Thank you, Chairman Poe, and thank you for 
conducting this hearing. I would also like to welcome and thank 
Chair Ros-Lehtinen, Ranking Member Deutch and members of the 
Middle East and North Africa Subcommittee for joining us today. 
Welcome.
    Lastly, I'd like to thank our panel for being here to 
discuss the various threats to Israel. You're all experts in 
your field and I look forward to hearing the nuances you bring 
to this vital topic.
    The United States and Israel have always had a special 
relationship. The relationship is unlike any other and it is 
founded on common values and shared interests and certainly all 
of us keep the people that were injured just recently in the 
bus bombing in our thoughts and prayers for their full 
recovery.
    Our country has defended Israel's right to exist since the 
very beginning--a stance we have demonstrated through will and 
force. Historically, Israel is the top recipient of U.S. 
military aid and administration after administration has worked 
to ensure that Israel maintains its qualitative military edge.
    We have witnessed continued funding for the Iron Dome 
defense system. We've doubled the stockpiles of emergency 
military equipment for Israel and, first, you know, we've 
approved the sale of bunker-busting bombs to Israel as well.
    Additionally, we're in the process of creating a new 
memorandum of understanding which could ultimately increase the 
security assistance already provided to Israel.
    This support is designed to deter and to mitigate threats 
to one of our closest allies, and as I'm confident my 
colleagues agree it's the role of the United States as a global 
leader, an active member of the United Nations, and as a friend 
of Israel to promote, encourage regional stability in the 
Middle East.
    Like many other countries in the region, Israel faces a 
number of challenges to its security both internally and 
externally.
    Externally, the Islamic State is active in both countries 
northern and southern boundaries, and Israel continues to face 
a constant threat from Hezbollah.
    Internally, violence between Israelis and Palestinians 
highlights this systemic distrust between the two groups. The 
prospects for renewed peace talks are low.
    Going forward, it is imperative we remain an honest and 
effective broker in assisting Israel in its security needs as 
well as promoting our own foreign policy goals in the region. 
This includes at times carefully examining Israel's actions to 
ensure they remain in line and consistent with our own American 
values and interests.
    As I said at the beginning, there are nuances to these 
topics and areas that need to be objectively examined. I hope 
we can hear today about the various challenges Israel faces not 
just from terrorist organizations but also economic pressures 
through the BDS movement.
    But most importantly, I would like to hear how the U.S. and 
Israel can cooperate to solve these challenges, and I yield 
back, Mr. Chairman.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The Chair recognizes the chairman of the Middle East and 
North Africa Subcommittee, Ms. Ileana Ros-Lehtinen from 
Florida.
    Ms. Ros-Lehtinen. Thank you so much, Judge Poe, and I am so 
glad that both of our subcommittees have called this hearing 
jointly to discuss the many threats that Israel faces.
    Unfortunately, as both of our speakers have pointed out, 
this hearing is quite timely. Israel fell victim to a 
disgusting terror attack as 21 people were injured in a bus 
bombing in Jerusalem just yesterday.
    Our thoughts and prayers are with the victims and the 
families and the people of Israel as they continue to seek 
peace and security.
    These so-called lone wolf attacks and knife-wielding 
individuals are said to be more difficult to protect against 
because there is no real organization or planning for it--just 
folks who are being incited to conduct these types of vicious 
attacks.
    It's the message they receive from the Palestinian 
leadership and Abu Mazen and this is where the U.S. can do 
more. We can have more of an impact because Israel clearly 
knows how to best protect her citizens. But the Obama 
administration should be using the leverage we have over the 
Palestinian Authority to press it to stop the incitement and 
work with Israel to promote peace.
    However, the terrorist threats that Israel faces aren't 
just limited to these bus bombings or knife attacks. I convened 
a hearing of our subcommittee last month on the growing threat 
that Hezbollah presents for Israel, and thanks to the Iran 
nuclear deal the Obama administration negotiated, Hezbollah 
stands to get even more financial and material support from 
Tehran.
    Even as Hezbollah fights in Syria, Iran has been 
transferring advanced weapons and weapons systems to its 
proxies through Syria and to Lebanon.
    Estimates now place Hezbollah's missile and rocket 
stockpiles in the area of 150,000. That is more than ten times 
the amount when it indiscriminately rained down over 100 
rockets a day for 32 days at northern Israel in the year 2006 
and this number now includes more sophisticated missiles with 
guidance systems, putting Israel at even greater risk.
    Hamas remains a constant threat and in fact, as Judge Poe 
mentioned, Israel recently just discovered the first Hamas 
tunnel from Gaza that reaches into Israel since the 2014 
fighting.
    And though Egypt may help destroy some of Hamas' tunnels, 
much more assistance is needed in the fight in the Sinai 
against terror groups there including ISIS and al-Qaeda 
affiliates.
    These terror groups are near Israel's borders in the Golan 
Heights and in Syria and in Sinai and are trying to gain more 
influence within the Palestinian territories as well.
    If Iran is the number-one threat facing Israel--threat 1A 
is Hezbollah, Hamas and all of the terror groups just on its 
borders--then threat 1B has to be the ongoing efforts by Abu 
Mazen and the Palestinian leadership to delegitimize and 
isolate Israel on the international stage at the U.N. and other 
similar efforts like a boycott, divest, and sanctions--BDS--
movement.
    It is no secret that Abu Mazen has been pushing his scheme 
for unilateral statehood at the U.N., trying to circumvent the 
peace process and a direct negotiated settlement with the 
Israelis.
    This effort saw UNESCO admit the nonexistent state of 
Palestine to its membership and then shortly after saw the U.N. 
upgrade the Palestinian status to nonmember observer status.
    Of course, we all know that UNESCO, the U.N. Human Rights 
Council, and the U.N. in general have an anti-Israel agenda. 
Just in the past few weeks, we saw the Human Rights Council 
vote to establish a black list of companies that could be used 
by those seeking to participate in BDS and which gives the 
impression that the U.N. supports BDS.
    UNESCO once again moved to remove any Jewish historical 
ties to Jerusalem and we know that the Palestinians are working 
to reintroduce resolutions at the U.N. Security Council that 
would impose a two-state solution on Israel along with 
artificial time lines for negotiations.
    I have asked the administration on several occasions to 
clarify its position on Israel at the U.N. Security Council but 
we never get a straight answer, Mr. Chairman.
    It should be simple. It has been longstanding U.S. policy 
to veto any such resolution as we have in the past and as the 
Palestinians are seeking to support--seeking support for now. 
Yet, the administration will not reaffirm that policy.
    This is worrisome and we should continue to press the 
administration to do more to stand by Israel and make it clear 
in no uncertain terms that we will veto any resolution that 
imposes a solution upon Israel.
    We need to also take a closer look at all of those behind 
the BDS movement and work to counter these efforts. Thank you 
so much, Mr. Chairman, for this joint hearing.
    Mr. Poe. I thank the gentlelady.
    The Chair recognizes the gentleman from Florida, Mr. 
Deutch, for his opening statement--the ranking member of the 
subcommittee.
    Mr. Connolly. Thank you very much. Thank you, Chairman Poe 
and Chairman Ros-Lehtinen, for holding today's hearing, and 
thank you to my fellow ranking member, Ranking Member Keating, 
and thanks to all of you for your strong support of the U.S.-
Israel relationship.
    I'd like to echo the sentiments of my colleagues in 
expressing my deep sympathy for the individuals injured in the 
bus bombing on Monday and to their families.
    This atrocious attack is unacceptable and unfortunately is 
emblematic of the constant threats that Israel faces. The 
hearing today gives us the opportunity to assess the very 
dangers facing Israel.
    To fully understand these threats and their effects on the 
U.S.-Israel relationship, we have to take a serious look at all 
of the challenges Israel faces on a daily basis, both strategic 
and political.
    Our two governments are currently in negotiations over a 
new 10-year memorandum of understanding that will serve as the 
basis of our assistance relationship.
    The United States has never wavered on its commitment to 
ensuring Israel is able to defend herself against any and all 
threats and a new MOU must reflect the current and future 
security threats to Israel for both state and nonstate actors.
    At any given time Israel faces the threat of rocket attacks 
from every single corner of her territory, from Hezbollah 
missiles shot from Lebanon, Syria to the north, Hamas rockets 
from the south, ISIS-affiliated militants Sinai.
    Hezbollah, a terrorist organization founded on the premise 
of resistance to the Zionist regime and bankrolled by Iran, now 
has an arsenal of over 150,000 rockets, many with advanced 
capabilities.
    Hezbollah's 6,000 to 8,000 mercenaries are fighting in the 
Syrian conflict and have been given access to even more 
advanced weaponry. Weapons flown from Iran to Hezbollah via 
Syria are being placed in precarious locations close to 
Israel's border, in the Golan Heights, for example.
    And last week, Prime Minister Netanyahu publically 
acknowledged that Israel has had to strike down dozens of these 
kind of convoys in order to prevent Hezbollah from stockpiling 
what he referred to as game-changing weapons on Israel's 
borders.
    Operating out of Gaza, Hamas and Palestinian Islamic jihad, 
two more of Iran's beneficiaries, have carried out decades of 
violent attacks on Israeli civilians. During the 50 days of 
Operation Protective Edge in 2014, 4,564 rockets and mortars 
were fired at Israel from Gaza. But thanks to the robust 
cooperative missile defense programs between the United States 
and Israel, Iron Dome was able to intercept over 700 rockets 
that would have landed in populated areas.
    Since September 2015, Israelis faced a new wave of 
violence, this time in the form of what have been dubbed lone 
wolf attacks. These deadly stabbings, shootings and car 
rammings aren't coming from lone terrorists or those affiliated 
with terror cells.
    Instead, these attackers are using kitchen knives, axes and 
their vehicles to target random Israeli citizens. These lone 
wolf attacks have taken the lives of over 30 people including 
American students Ezra Schwartz and Taylor Force.
    These attacks are the result of, among others, the violent 
incitement within Palestinian society and I was proud to join 
Chairman Ros-Lehtinen in offering a resolution that passed the 
House unanimously last fall condemning incitement within the 
Palestinian Authority.
    The entire world must condemn these indiscriminate attacks. 
Of course, Iran continues to pose an existential threat to 
Israel despite concluding the nuclear agreement. In an 
outrageous display of defiance, Iran recently test fired a 
ballistic missile emblazoned with the phrase ``Israel must be 
wiped off the Earth'' in Hebrew.
    Many of us, both supporters and opponents of the nuclear 
deal, are deeply committed to ensuring that the funds gained 
from sanctions relief do not go toward supporting terrorism 
aimed at Israel or others in the region.
    This includes funding and exporting weapons to terrorist 
organizations. It includes the continued development of 
ballistic missiles capable of delivering a nuclear warhead, and 
it includes attempts to stir up trouble in other countries in 
the Middle East in an attempt to provoke instability across the 
region.
    And there is nothing in the Iran nuclear deal--there is 
nothing in the deal that prevents additional sanctions from 
being imposed against Iran for those areas outside of the 
nuclear deal including their support for terrorism, nor is 
there anything in the nuclear deal that prevents states like my 
own state of Florida from continuing to ensure that our state 
pension money and all those funds do not contribute to Iran's 
destabilizing activities in the region.
    And not all the threats facing Israel are security related. 
In the past year, the supporters of boycott, divestment and 
sanctions--the economic warfare against Israel--disturbingly 
gained traction as they positioned themselves as a means of 
nonviolent resistance.
    In reality, what they're doing is unjustly singling out and 
demonizing one country--Israel. And I wish the voices of those 
who support BDS spoke out against the dozens of tyrannical 
regimes who violate the human rights of their people every day. 
And while it's perfectly acceptable for people to criticize 
government policies, it is unacceptable when that criticism is 
intended to attack the legitimacy and the very existence of a 
nation, and that is what the BDS movement does.
    Unfortunately, those hurt most by BDS efforts often are 
Palestinian workers whose jobs are put at risk by those who 
seek to boycott Israel. We have to work toward the goal of a 
two-state solution--two states living side by side in peace and 
security with thriving economies--and the BDS movement only 
pushes the prospects of peace further out of reach by unjustly 
placing blame on one side instead of urging both sides to the 
negotiating table.
    And finally, Mr. Chairman, while efforts--and Madam 
Chairman--while efforts to delegitimize Israel in the 
international community are nothing new, Israel and their 
allies must continue to meet them with resolve.
    The United Nations Human Rights Council continues to debate 
and pass anti-Israel resolutions at every one of its meetings 
while ignoring Syria, Iran, and the rest of the world's human 
rights abusers.
    These efforts must be condemned and, further, any effort 
that seeks to circumvent direct negotiations between Israel and 
the Palestinians must be opposed. The only path to two states 
for two peoples is through direct negotiations between the two 
parties.
    This should be encouraged by anyone who considers 
themselves to be a friend of Israel and by anyone who claims to 
want what's best for the Palestinian people.
    We have to recognize U.S. and Israel stand together not 
just because we share security concerns but because we share 
the same values of democracy, equality, and freedom; and I look 
forward to discussing the ways in which we can keep Israel 
vibrant and strong, protect the security of our ally, and 
foster an environment that is conducive to peace.
    And I appreciate the time, Mr. Chairman.
    Mr. Poe. Appreciate the comments by the gentleman from 
Florida.
    The Chair will now recognize other members for a 1-minute 
opening statement if they wish. I'm going to ask the members to 
keep it to 1 minute or less so we can get our witnesses--have 
them testify and try to do all of this before we have to break 
for votes.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Wilson, for 1 minute.
    Mr. Wilson. Thank you, Chairman Ted Poe and Chairwoman 
Ileana Ros-Lehtinen, for holding this important joint hearing 
with distinguished witnesses.
    As our closest ally in the Middle East, Israel faces some 
of the greatest threats in its history. Most critically, the 
bizarre Iran nuclear deal has provided the Iranian regime over 
$100 billion--enabling them the further promote terrorism, 
which enhances threats to Israel.
    Even more dangerously, the deal provides for Iranian regime 
to provide a path forward to producing nuclear weapons. This 
fact, combined with Iran's testing of two ballistic missiles, 
in March reveals a clear picture of damage that the President's 
short-sighted deal could potentially have on American families.
    To make matters worse, these two ballistic missiles 
included the phrase, ``Israel must be wiped off the map,'' 
written in Hebrew as a blatant threat.
    Aside from the threat of Iran, Israel has suffered from an 
increase in lone wolf terrorist attacks. According to Israeli 
intelligence, there have been more than 230 attacks in the last 
7 months, killing 34 persons, injuring 400.
    I look forward to the bipartisan cooperation that we have 
already heard today, working with our colleagues. I yield back.
    Mr. Poe. The Chair recognizes the gentleman from Virginia, 
Mr. Connolly. The Chair recognizes Mr. Connolly if he wants to 
give an opening statement--from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    I echo the concerns of my colleagues about the security of 
Israel and the lack of balance at international institutions 
including the United Nations when examining human rights 
violations and policies that subjugate whole parts of a 
population.
    I also think, candidly, that a threat to Israel is also 
internal and we ought to be examining that as well as a friend 
to Israel--the concern--the long-term concern of the 
consequences of an endless occupation of the West Bank and the 
demographic imperative of the growth of both an Arab and 
Palestinian population.
    These are our concerns to deep friends of Israel and 
certainly we heard some of those echoed by the Vice President 
of the United States last night.
    In any event, I'm glad we're having a hearing and I hope we 
look at both and I want to certainly associate myself with the 
remarks of Mr. Deutch. At the end of the day, there could be no 
substitute for the two parties sitting down and having direct 
talks if we're ever going to have peace in this corner of the 
world.
    I thank the chair.
    Mr. Poe. The Chair recognizes the gentleman from Florida, 
Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman. Thanks for having 
this hearing. I support Prime Minister Netanyahu's declaration 
that the Golan Heights should not be given back to Syria. I 
think that would attract terrorists. They'd be launching 
attacks against the Jewish state incessantly.
    We've seen the Iran deal has really hastened Iran's ascent 
as the dominant Islamist power in the region. They are firing 
missiles. They're exporting terrorism. They have a major cash 
influx.
    We're told that Israel needs to make all these concessions 
for peace with the Palestinians but the Palestinians still 
don't recognize Israel's right to exist as a Jewish state and 
still incite terrorism and hatred against the Jewish people.
    Our friends in Europe sometimes don't fare much better. 
Many of those countries are moving in the direction of 
boycotting Israel, the only democracy in the Middle East, and 
they hold no other country to that same standard.
    So I appreciate your holding this hearing. I think we have 
to take these threats to Israel seriously and I look forward to 
a new administration coming in and finally moving our Embassy 
to Jerusalem where it belongs.
    Thank you. I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from Rhode Island, Mr. 
Cicilline, for his 1-minute opening statement.
    Mr. Cicilline. Thank you, Chairman Poe, Chairman Ros-
Lehtinen, Ranking Members Keating and Deutch for calling this 
hearing on the threats to the Jewish state.
    With the rise of violence within Israel and the growing 
instability in the region at large this hearing is very timely. 
I'd also like to thank our witnesses for being here today.
    Like others, I'd like to express my horror and outrage at 
yesterday's terrorist attack of Jerusalem that targeted 
innocent men, women and children. My thoughts and prayers are 
with the victims of this horrific attack and their families.
    It is completely unacceptable that the Israeli people 
continue to live under the constant threat of terrorist 
violence. I know my colleague has joined me in strong support 
of the people of Israel today.
    We will do everything we can to help bring those 
responsible to justice and provide whatever assistance is 
necessary to combat the threat of terrorism. Israel, like every 
nation, has the right to protect its people against cowardly 
terrorist attacks.
    The fact that this violence has escalated over the past 2 
years is especially troubling and the fact that the Palestinian 
Authority has not taken a forceful stance against this 
terrorism threatens the long-term stability of both the 
Israelis and the Palestinians and threatens peace negotiations 
going forward.
    Both sides must do all they can to foster an environment 
for seeking peace, and the United States must continue to be 
there to encourage both sides to seek peace and to ensure 
Israel's security.
    This hearing will help us better understand all the threats 
facing Israel in the rapidly changing and dangerous context of 
these threats.
    I look forward to hearing from the witnesses and I thank 
you, Mr. Chairman, and yield back.
    Mr. Poe. The Chair recognizes Mr. Trott for his opening 
statement.
    Mr. Trott. I'd like to thank our respective committee 
chairs and ranking members for holding this important hearing.
    As has been mentioned several times already, Israel is 
under constant threat from Iran and their proxies--a threat 
that's intensified under the administration's repeated 
acquiescence.
    I was an early and often outspoken critic of the nuclear 
deal with Iran, and if you look at their behavior over the past 
6 months it's pretty clear that my comments were correct, and I 
continue to maintain you can't do a good deal with a bad guy.
    Most recently, it was rumored that the administration was 
looking to do an end around Congress and give Iran access to 
the U.S. dollar--yet another concession.
    In an effort to stop this misguided policy, I recently 
introduced legislation that would block the Department of 
Treasury from providing Iran access to the U.S. dollar. If the 
administration is not willing to stand with Israel then it's 
even more important to show the world that the House of 
Representatives will.
    Thank you, and I yield back.
    Mr. Poe. I thank the gentleman.
    Now that we have all had our say, you will get your say but 
not so quick. We are now in the middle of votes. We will return 
after votes, and then we will hear from our witnesses.
    Thank you for your patience. So the committees stand 
adjourned until 10 minutes after votes are concluded.
    [Recess.]
    Mr. Poe. The subcommittees will come to order.
    Without objection, all of the witnesses' prepared 
statements will be made part of the record. I ask that each 
witness keep your presentation to no more than 5 minutes. When 
the red light comes on that means stop talking.
    I'll introduce each witness and then give them time for 
opening statements. Dr. Michael Rubin is currently a resident 
scholar at the American Enterprise Institute where he focuses 
on terrorism.
    He formally served as a Pentagon official whose major 
research areas were the Middle East, Turkey, Iran and 
diplomacy.
    Dr. Jonathan Schanzer is the vice president and researcher 
at the Foundation for Defense of Democracies where he focuses 
on Palestinian politics, Iran, and Israeli affairs. He 
previously served as terrorism finance analyst at the U.S. 
Department of Treasury.
    Mr. David Makovsky is the Ziegler distinguished fellow with 
the Irwin Levy Foundation Program on the U.S.-Israel Strategic 
Relationship at the Washington Institute for Near East Policy.
    He recently served as a senior advisor on Secretary Kerry's 
Middle East peace team.
    Dr. Tamara Cofman Wittes is the director of the Center for 
Middle East Policy at the Brookings Institute. She previously 
served as deputy assistant director of secretary of the state 
for Near Eastern Affairs, coordinating U.S. policy on democracy 
and human rights in the Middle East.
    Dr. Rubin, we'll start with you.

 STATEMENT OF MICHAEL RUBIN, PH.D., RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Rubin. Chairman Poe, Ranking Member Keating, Chairman 
Ros-Lehtinen, Ranking Member Deutch, distinguished 
representatives, it is an honor to speak before you today about 
the growing threats Israel faces to its security.
    I have detailed in my written testimony how Iran's Islamic 
Revolutionary Guard Corps will benefit disproportionately from 
Iran's reintegration into the world economy.
    Because the IRGC cares far less about bolstering the 
prosperity of Iranian citizenry versus resourcing its 
ideological desire to undermine, delegitimize, and attack 
Israel, Israel faces enhanced enemy capabilities on almost all 
fronts.
    I do not want to repeat the threats described by my fellow 
panelists in their written testimony. All these are relevant 
and true. Rather, I would like to draw attention to two looming 
problems that are not receiving adequate attention.
    In recent years, Iran has developed a number of different 
surveillance and attack drones. While its claims to have 
reverse engineered a downed CIA drone are risible, U.S. 
military pilots flying over the Persian Gulf regularly describe 
seeing Iranian UAVs.
    Iran has openly deployed its indigenous UAV technology into 
Syria and Iraq and perhaps Lebanon as well. Iranian UAVs fly 
over Syria's largest city in Aleppo and so could just as easily 
fly over the Golan Heights, the Galilee, or into international 
air paths over Tel Aviv, Ben Gurion International Airport, or 
Israel's smaller regional airports.
    That Iranian sources openly brag about their development to 
both suicide drones and new satellite-guided drone navigation 
capabilities augments concern.
    Neither Iran nor its proxies need to be able to strike an 
aircraft or an airport to be successful. Simply interfering 
with civilian air traffic will likely augment Israel's 
isolation as airlines suspend service into Tel Aviv.
    Nor is the UAV threat the only one looming for Israel. With 
the discovery of gas fields in eastern Mediterranean, Lebanese 
authorities have asserted a claim to 300 square miles of 
Israeli waters.
    Therefore, even though the United Nations formally 
certified Israel's withdrawal from Lebanon complete, the 
dispute over Shebaa Farms notwithstanding, Lebanon has 
resurrected a new claim that provides Hezbollah cover to pursue 
its rearmament and terrorism.
    Indeed, Hezbollah has bragged that it has been training 
operatives in underwater sabotage. This not only suggests a new 
terror capability that could be utilized against Israel but is 
also a direct threat to many American engineers and oil workers 
involved in the region.
    As we consider the threats not only to Israel but the 
United States and our moderate Arab allies as well, it is 
essential to consider not only the enhancement of terrorist 
missile threats Israel has long faced but also the new 
platforms which will be used to attack the Jewish state.
    Since Israel's enemies make no secret of their desire also 
to target and defeat the United States, it is time to begin a 
serious discussion about how to reformulate Israel's 
qualitative military edge for the next generation.
    I also want to just add one separate point with regard to 
the demographic imperative and the demographic challenges which 
Israel faced.
    We should not be distracted by notions of the demographic 
imperative as oftentimes we are now. The Palestinian Statistics 
Agency's statistics cannot be taken at face value.
    They double count Jerusalem, they refuse to count 
emigration, and if you compare multiple censes you notice that 
the predications are off by several percentage points and are, 
frankly, readjusted with magic numbers.
    Bad data, even if diplomatically convenient, oftentimes 
leads to bad policy, and with that, I conclude.
    Thank you very much.
    [The prepared statement of Mr. Rubin follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Poe. Thank you, Dr. Rubin.
    Mr. Schanzer.

   STATEMENT OF JONATHAN SCHANZER, PH.D., VICE PRESIDENT FOR 
        RESEARCH, FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Schanzer. Mr. Chairman, Madam Chairman, on behalf of 
the Foundation for Defense of Democracies, thank you for 
inviting me to testify.
    I was asked today to talk about the boycott, divestment, 
and sanctions movement, also known as BDS. This campaign claims 
to pursue justice for the Palestinians. In truth, many of these 
groups seek to wage an economic war against Israel.
    Members of the committee, I worked as a terrorism finance 
analyst at the U.S. Treasury from 2004 to 2007. My job was to 
help freeze the assets of terrorist financiers.
    I am out of government now but I continue to monitor trends 
in the field. FDD recently completed research that tracked 
employees from organizations implicated by the Federal 
Government for terrorism finance.
    Our research yielded a troubling outcome in the case of 
three U.S.-based organizations involving the financing of 
Hamas--a designated terrorist group with a grisly track record 
of suicide bombings and firing rockets at civilian populations 
and whose charter openly calls for the annihilation of Israel.
    The three now-defunct organizations are Holy Land 
Foundation for Relief and Development, Kind Hearts for 
Charitable Humanitarian Development, and the Islamic 
Association for Palestine.
    As it turns out, many individuals who previously worked for 
or on behalf of these groups now work or fundraise for an 
Illinois-based organization called American Muslims for 
Palestine, otherwise known as AMP.
    AMP is arguably the leading BDS organization in the U.S. It 
is a key sponsor of the anti-Israel campus network known as 
Students for Justice in Palestine, or SJP.
    AMP provides money, speakers, training, printed materials 
and so-called apartheid walls to SJP activists. AMP even has a 
campus coordinator who orchestrates the BDS activities of SJP 
and other campus groups nationwide.
    The overlap between AMP, Holy Land, Kind Hearts and the 
Islamic Association for Palestine is striking. For example, 
Salah Sarsour, a former fundraiser for the Holy Land 
Foundation, is now an AMP board member and he has twice served 
as AMP's national conference chairman.
    There is also Jamal Said, who is director of the Mosque 
Foundation, which prosecutors identified as the key funder for 
the Holy Land Foundation. And as a reminder, a Federal court 
found that Holy Land sent $12 million to Hamas over 10 years.
    Today, the Mosque Foundation donates to AMP, and Mr. Said 
has been a keynote speaker at AMP's annual fundraising dinner 
for 3 years running.
    Then there is Abdelbasset Hamayel, who is officially the 
registered agent for AMP. He is occasionally identified as 
AMP's director. Several sources point to Hamayel as the 
Wisconsin and Illinois representative for Kind Hearts, a group 
the Treasury called the progeny of the Holy Land Foundation. 
Treasury blocked the assets of Kind Hearts and it was 
ultimately dissolved.
    Hamayel, I should note, was also the secretary general of 
the Islamic Association for Palestinian, or IAP, a group found 
civilly liable in a Federal court for financing Hamas, and 
there are many other IAP-AMP connections.
    For example, the former president of IAP, Rafeeq Jaber, is 
one prominent AMP figure. He has also been listed as the tax 
preparer for AMP's 501(c)(3) fiscal sponsor since 2010. I am 
referring here to Americans for Justice in Palestine 
educational foundation, also known as AJP.
    There is also Osama Abuirshaid, who ran IAP's newspaper. He 
is currently the national coordinator and policy director for 
AMP. Mr. Abuirshaid also runs a pro-Hamas newspaper in 
Virginia.
    Incidentally, we discovered that a major donor to AMP's 
conferences, the Zakat Foundation, is run by Khalil Demir. 
Demir signed the IRS 990 form for Benevolence International 
Foundation, which Treasury shut down for funding al-Qaeda.
    There is also an unregistered BDS group that works with AMP 
whose leader was reportedly a fighter for the popular front for 
the liberation of Palestine, also a designated terrorist group.
    There is more and so please read my testimony for the full 
picture. I should note here that our open source research did 
not indicate that AMP or any of these individuals are currently 
involved in illegal activity.
    But I should also note that AMP, at their 2014 annual 
conference, held a panel inviting guests to ``come navigate the 
fine line between legal activism and material support for 
terrorism.''
    It is also noteworthy that a recent photo from AMP suburban 
Chicago headquarters features a poster with the phrase, ``No 
Jew will live among them in Jerusalem.''
    This sounds a lot like promoting Hamas' agenda here in the 
United States, if you ask me.
    In short, the BDS campaign may pose a threat to Israel but 
the network I describe here is decidedly an American problem.
    There appear to be flaws in the Federal and state oversight 
of nonprofit and charities. In my written testimony, I suggest 
ways to increase transparency.
    Let me conclude with this. BDS activists are free to say 
what they want, whether true or false. But tax-advantaged 
organizations are obliged to be transparent. Americans have a 
right to know who is leading the BDS campaign and so do the 
students who may not be aware of AMP's leaders or their goals.
    One again, thank you for inviting me to testify and I look 
forward to your questions.
    [The prepared statement of Mr. Schanzer follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Poe. Mr. Makovsky.

STATEMENT OF MR. DAVID MAKOVSKY, ZIEGLER DISTINGUISHED FELLOW, 
    IRWIN LEVY FAMILY PROGRAM ON THE U.S.-ISRAEL STRATEGIC 
  RELATIONSHIP, THE WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Makovsky. Mr. Chairman, Madam Chairwoman, ranking 
members, of course, thank you for the opportunity to speak 
before these two distinguished subcommittees.
    In keeping with the questions you asked us about 
challenges, I would like to first focus on security in the 
evolving threat environment.
    Israel is largely encircled by nonstate actors today. They 
have no problem to embed themselves in the heart of urban 
areas, fire rockets into Israeli cities and in so doing, 
challenge Israel to retaliate which leads to greater 
Palestinian casualties.
    In Lebanon, the dominant nonstate actor is Hezbollah, 
which, as you have pointed out, is believed to have 150,000 
rockets. Then there is Hamas in Gaza. While there is relative 
quiet along this front, it's only a matter of time before a 
fourth war begins in Gaza.
    Needless to say, without U.S. military assistance writ 
large and without Iron Dome specifically, Israel's security 
predicament would be far worse.
    Of course, beyond the challenge of its immediate neighbors 
there is also Iran and its regional proxies. Israel may not 
like the Iran deal, as we all know, but understands it must now 
turn toward enhancing the U.S.-Israel bilateral security 
relationship, as should the United States as well.
    This rather sober assessment has been punctuated by 
relative success in the Israel-Palestinian security cooperation 
in the West Bank. Of course, we don't know who did this attack 
yesterday on the bus. It has the markings of a homemade and not 
organizational type, which would be consistent. But I would say 
that Israeli officials say that the PA security cooperation 
with Israel has been essential in reducing this fact--in 
reducing the recent wave of violence.
    Just last week, Israeli Defense Minister Moshe Ya'alon held 
a press conference and he said, ``The PA has worked tirelessly 
recently to stop terror.''
    In return, Israel's security services has served as an 
important stabilizing role within the Israeli structure and 
promoted further economic and security cooperation with the 
Palestinians. However, it may still be too soon to pronounce 
that the wave of stabbing is over, as there could be an upsurge 
with the upcoming holiday season which begins in the next few 
days.
    So what can the U.S. do to tackle these threats and seize 
the opportunities? When it comes to Iran, the U.S. and Israel 
need to strictly enforce Iranian compliance of the nuclear deal 
and push back against malign Iranian behavior in the region.
    The U.S. and Israel should form a joint committee which 
would deal with the implementation of JCPOA, address the 
potential violations, and maintain and strengthen nonnuclear 
sanctions.
    The U.S. and Israel should also swiftly conclude negations 
for a 10-year MOU. Israel's deterrent power, as you know, is in 
large part a reflection of how its adversaries view the 
strength of its strategic relationship with Washington.
    In a broad sense, Israel views the strength of the U.S.-
Israel relationship as a function of how the U.S. is perceived 
in the region by friend and foe alike.
    If the U.S. is viewed as the center of the pragmatic camp 
in the Middle East, this will bolster the position of this 
critical bilateral relationship beyond all its other obvious 
benefits.
    On the Palestinian issue, there remain several challenges. 
The U.S. has engaged in three noble efforts in 2000, 2007, 2014 
to solve the entire conflict. For a variety of reasons these 
efforts didn't succeed.
    Under the current leadership, I don't see succeeding in the 
near future. I'm rather skeptical about efforts to put forward 
parameters at the U.N. Security Council, which would be 
interpreted by both sides as an imposed solution and could 
serve as a baseline for defiance rather than bringing the 
parties closer.
    Indeed, we need to find a way to maintain the viability of 
a two-state outcome. Even if we can't implement a two-state 
solution today, I have some ideas which I can discuss when we 
have more time in the Q and A.
    There are also moves the Palestinians could take to prove 
their commitment to two states as well including jettisoning 
its anti-normalization policy and stop incentivizing terror by 
paying money to Palestinian prisoners and relatives of suicide 
bombers.
    U.S. needs to sensitize our European allies to these issue. 
Given the closeness between the Europeans and the Palestinians, 
it would carry weight if the Europeans practiced the same tough 
love they have urged the United States to administer when it 
comes to Israel. But they don't seem to do it to our 
Palestinian friends.
    The issue of boycott, divestment, and sanctions--BDS--is 
important to me. I have visited over--made 121 campus visits, 
mostly to discuss this issue. And if the BDS movement isn't 
blunted and there is no movement on the ground toward peace, I 
fear that the movement could metastasize beyond college 
campuses.
    In conclusion, there are definite challenges. But there are 
also opportunities amid the crises. The dynamism of the U.S.-
Israel relationship will be tested by how our two countries 
work together to meet these new challenges and in so doing take 
our relationship to the next level.
    Thank you very much.
    [The prepared statement of Mr. Makovsky follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Mr. Poe. Thank you very much.
    Dr. Wittes.

STATEMENT OF TAMARA COFMAN WITTES, PH.D., DIRECTOR, CENTER FOR 
           MIDDLE EAST POLICY, BROOKINGS INSTITUTION

    Ms. Wittes. Thank you, Mr. Chairman, Madam Chairman, Mr. 
Keating and Mr. Deutch, members of the committee.
    I appreciate the invitation to appear before you and I must 
emphasize, as always, that I represent only myself before you 
because the Brookings Institution does not take any positions 
on policy issues.
    On the afternoon following a day Israelis began with the 
discovery of yet another Hamas tunnel from Gaza into Israel, 
and that ended with the bombing of a bus, it seems like a very 
apt and sobering opportunity to give you some thoughts on the 
threats facing Israel from terrorism and from the impact of 
regional disorder.
    I've had the chance to discuss these concerns with a range 
of Israeli officials and experts in the last several months, 
and I'll share my impressions with you.
    Let me begin with Iran. When I appeared before you just 
about a year ago, I said that whether or not there was a 
nuclear deal, I thought we would see a more aggressive approach 
by Iran in a host of arenas around the region, where the 
upheaval has given them greater opportunities than before, and 
indeed, that's what we've seen.
    Iran, helped in Syria by Russia, has pushed forward 
assertively to advance its influence and strengthen its allies 
around the region. In my view, this escalation of Iran's 
attempts at subversion was inevitable with or without a nuclear 
agreement.
    Iran never lacked motivation for its assertions of power. 
Iran's sanctions-induced economic hardship did not prevent the 
country from spending billions supporting Assad and Hezbollah.
    The fact is that the Arab uprisings of 2011, the civil wars 
that emerged in their wake and the sectarian narratives 
employed by Iran and its Arab adversaries have all given the 
Islamic Republic unprecedented opportunity to expand its 
activities and it has exploited these opportunities very 
successfully.
    The main driver of instability and threat in the Middle 
East today is the civil violence that we see in Syria, Yemen, 
Libya and, increasingly, Iraq.
    Ending those civil wars and the opportunities they create 
for bad actors should be a top priority for the United States 
and others concerned with regional stability.
    The nuclear agreement with Iran is a concrete rollback of 
Iranian capability and IDF Chief of Staff Gadi Eizenkot noted 
in January that it abates for a period of time what had been 
Israel's greatest and most urgent security threat, and this 
gives the IDF important breathing space in which to focus on 
building its capabilities to address other threats and 
opportunities.
    In Syria, the scenario that most concerns Israel is one in 
which Assad remains in power in Damascus and dependent on Iran 
for survival. Israeli officials also worry that continued chaos 
in Syria could allow jihadi groups like Jabhat al-Nusra or the 
Islamic State to launch attacks into Israel from the Golan.
    But Israel's greatest concern is the impact of the Syrian 
war on Hezbollah for three reasons. First: Hezbollah's 
investment in saving Assad has altered the political equation 
in Lebanon in ways that could destabilize that country and 
motivate Hezbollah to try and win political points domestically 
by attacking Israel.
    Second: The prospect of an outcome from the Syrian war that 
leaves Assad in power and Iran in effective control presages 
further transfers of weapons and technology from Iran to 
Hezbollah through Damascus. That is why the possibility of a 
negotiated settlement leaving Assad in power is such a 
concerning outcome for Israel.
    Third: The Syrian war has given Hezbollah fighters 
extensive experience in conventional warfare, increasing their 
battle hardiness and capabilities in the event of another 
conflict with Israel.
    A few comments on Hamas and Gaza--while Hamas has rebuilt, 
apparently, some of its tunnel and rocket capabilities since 
the 2014 conflict, current events suggest that it's still more 
interested right now in survival than in confrontation.
    But should Hamas provoke another round with Israel, there's 
no question that the IDF would face many of the same military 
challenges that it faced in 2014.
    Indeed, fighting terrorism in a heavily populated 
environment is a long-term challenge for the IDF whether in 
Gaza or, potentially, southern Lebanon or even, potentially, 
the West Bank. So building up new tactics and new capabilities 
against this challenge is a key task for Israel's military.
    The situation in the West Bank is in many ways more 
volatile. My colleague has addressed it. What I will say is 
that the Palestinian Authority and Palestinian politics are not 
immune from the governance challenges faced by other Arab 
states.
    There's a wide and growing gap between the Palestinian 
leadership and the public, particularly young people who see 
little prospect for economic, diplomatic or political progress 
in their current circumstances.
    This points to the fact that the stalemate in the Israeli-
Palestinian conflict carries a continuing cost for both sides. 
The status quo is deteriorating, not static, and reminds us 
that a negotiated resolution of this conflict remains Israel's 
best option for long-term security.
    Finally, a word about ISIS in Sinai. The most recent 
statistics from the Taqrir Institute recorded 74 attacks 
against Egyptian targets in just the last quarter of 2015. 
That's nearly one every day.
    Egypt's counter terrorism campaign in Sinai has been of 
limited impact. One Israeli source told me that the Egyptian 
campaign was mostly good at making the sand jump.
    The Obama administration, as you know, is redirecting U.S. 
military assistance to Egypt away from long-term commitments to 
major weapons systems toward a focus on effective counter 
terror and border security. This is an effort that deserves the 
robust support of Congress.
    Changes in the region have shifted the nature of the 
threats facing Israel, and from a broader perspective the 
decline for now of traditional state-based threats offers two 
opportunities for Israel--first, time and space to undertake 
longer-term planning for the structure, size, and capabilities 
of the IDF to meet the challenges ahead, and second, and 
perhaps more importantly, to seize the moment to determine what 
Israel wants in its future relationship with the Palestinians 
and push forward with steps to achieve a two-state solution 
that is in Israel's interest.
    As the U.S. and Israel continue their discussions on a new 
10-year MOU, it's important to evaluate the shift in Israel's 
threat environment and help Israel prepare accordingly.
    Thank you.
    [The prepared statement of Ms. Cofman Wittes follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Mr. Poe. Thank you, Dr. Wittes. I will recognize myself for 
questions.
    These entities have been mentioned by the four of you all 
that are hostile toward Israel--Hezbollah, Hamas, Syria, Nusra 
Front, the Palestinians, ISIS and Iran, including the three 
organizations that are defunct--the Holy Land Foundation, the 
Kind Hearts--interesting name--Islamic Association for 
Palestine.
    All of these groups do not like Israel. Some of them have 
publicly proclaimed ``Death to the Israelis.'' But they have 
one thing in common--none of them like Israel.
    What is one--what is the basis of that? Why are they hating 
on Israel for so many years, if I can use the phrase my 
grandkids use? One of you want to try to address that?
    Dr. Rubin.
    Mr. Rubin. If I may, very briefly.
    Mr. Poe. Please.
    Mr. Rubin. It's possible to think about terrorism and the 
motivations for terrorism on a spectrum ranging from grievance 
on one side to ideology on the other. Our State Department 
across administrations tends to be addicted to the notion that 
terrorism is motivated by grievance and that can be very 
comforting because that means you can come up with some magic 
formula of incentives to make that terrorism go away.
    We need to recognize much more directly the ideological 
basis of most terrorism that there is no magic formula, there 
is no concession--that ultimately what you have to do is 
delegitimize that ideology. We have done it before with the 
Baader-Meinhof Gang. We can do it now.
    Mr. Poe. Okay. Let's be a little more specific. You got 
Iran testing ballistic missiles and they put on the side in 
Hebrew ``Death to Jerusalem'' or ``Death to Israel.'' Is this a 
religious phenomena philosophy that is uniting these 
organizations or is it not? What is the basis of the 
philosophy? Forget about the grievances. Center on the 
philosophy. What is the philosophy they all have in common, if 
they do have one in common?
    Mr. Schanzer. Mr. Chairman, I think it's safe to say that 
we're talking about militant Islam--radical Islam, whatever 
you'd like to call it. I know it's not a very popular term 
these days in Washington but it is a radical ideology that 
empowers both this--what we call the Sunni and Shi'a sides of 
the street.
    You got the Islamic State. You've got the Islamic Republic. 
Their hatred for Israel, their Islamist ideology is what--is 
what really motivates the terrorism that they carry out.
    This has been our battle since 9/11. We continue to battle 
it. It's taken on different forms in this town. But I think 
that the challenge still remains.
    Mr. Poe. So if we recognize it as for what it is--radical 
Islam opposed to Israel based on a philosophy--as opposed to a 
grievance, it's more difficult to deal with. Would you agree or 
not?
    Mr. Schanzer. Absolutely.
    Mr. Poe. All right. The IRGC, do you think that that should 
be labelled as a terrorist organization? Any of you think that 
it should?
    Mr. Makovsky. Yes, I absolutely do. Now, in Iran's both--in 
both Iran's constitution and in the founding statute of the 
Islamic Revolutionary Guard Corps, it defines the purpose of 
both the Islamic Republic and the Islamic Revolutionary Guard 
Corps as an export of revolution.
    In 2008, in an internal Iranian debate this was defined 
exclusively as hard power in terms of sabotaging other 
countries basically with bombs and bullets.
    Now, we oftentimes talk about the Iranian political 
spectrum from hardliner to reformist. You will note that 
American policy makers don't talk about the Islamic 
Revolutionary Guard Corps and the factual divisions therein in 
the same way, number one, because we don't have adequate 
intelligence on that, and number two, no matter what the 
Iranian people might think it's ultimately the guys with the 
guns that matter and the most ideologically pure members of 
these units are the ones that have the capabilities to attack 
Israel and the will to do so.
    Mr. Poe. The groups the Holy Land Foundation, the Kind 
Hearts, Islamic Association for Palestine--those were tax-
exempt organizations that are now defunct, and there's a new 
organization in Chicago, the American Muslims for Palestine. 
Are some of the folks that were working with those groups that 
have been put out of business by the Treasury Department--have 
they moved over to this new organization and still doing the 
same thing?
    Mr. Schanzer. Mr. Chairman, we've identified in this 
testimony that we've got three individuals from Holy Land that 
have moved over to AMP.
    Mr. Poe. Let me interrupt because I just got a few minutes 
left--seconds left.
    Is this a--this new organization is it a tax-exempt 
organization as well?
    Mr. Schanzer. So three from Holy Land, three from Islamic 
Association for Palestine, one from Kind Hearts all now working 
for AMP, which is pretty significant, we think, when we look at 
the leadership. When you----
    Mr. Poe. Are they raising money for any organization--
terrorist organizations or do you know?
    Mr. Schanzer. Not that we know of. What we can tell you is 
that AMP is a corporate nonprofit. It has a 501(c)(3) that is 
its fiscal sponsor. So it raises tax deductible donations, 
passes them through what's known as AJP, Americans for Justice 
in Palestine. It passes through to AMP and then AMP then passes 
it on to campus. It's quite a structure.
    Mr. Poe. Thank you.
    I yield to the gentleman from Massachusetts, Mr. Keating, 
the ranking member.
    Mr. Keating. Thank you, Mr. Chairman.
    I was intrigued with Dr. Wittes' comments about Egypt and 
advanced weaponry. But I want to take that on a different tack 
if I can.
    Last week, the Prime Minister--Prime Minister Netanyahu--
announced that Israel launched a number of strikes inside 
Syria, targeting suspected arms transfers to Hezbollah 
fighters.
    When I talked to the Prime Minister last year, he said--
it's not surprising that he did that because he said unless 
something affects his borders he had no intention of doing 
that.
    At the same time, Israel diplomatically reached out to 
Russia and wanted assurances that their weaponry, since they 
are departing the area without announcement, not fall into the 
hands of Iranians or, particularly, Hezbollah.
    So there's a concern there. How much of a threat is that, 
is the weaponry falling into the hands of groups like 
Hezbollah. Mr. Makovsky.
    Mr. Makovsky. As far as I know, things like the SA-300, the 
SA-400 remain under Russian command and control. The Russians 
have not been sharing this weaponry with their--with the Syrian 
Government or anything. They insist on operating it themselves.
    But I think what the Prime Minister, by the way, told you I 
think is accurate. I think that is--Israel has learned from 
1982 it's very difficult to social engineer an Arab state, and 
they are more humble about the limits of their use of force 
than others may be about them and I think that they have 
limited their engagement in the Syria conflict to defense.
    You know, if you fire and hit Israel, Israel will hit back. 
But if they also see advanced weaponry, and Netanyahu has now 
said publicly these have been dozens of times that they've 
detected advanced weaponry going from Hezbollah in Syria to 
Hezbollah in Lebanon, they're going to hit them. But it's pure 
defense at this point and I think they do not think they will 
be decisive in any way, shape, or form given the myriad of 
militias inside Syria and have taken in that sense a very low 
profile and very limited objectives.
    Mr. Keating. You also mentioned, though, at the same time, 
I believe, that Israel may enter the battlefield. Will those be 
instances where that weaponry is getting transferred? Is that 
your suggestion?
    Mr. Makovsky. As far as I know, those has been--and I've 
asked this to IDF and other security people when I was over 
there and they have a very limited kind of objective, which is 
advanced weaponry that's being transferred to Hezbollah in 
Lebanon.
    Mr. Keating. I think that's a real concern to be watchful 
from the U.S. standpoint. You know, the lone wolf attacks--
that's something that represent the greatest risk to us here in 
the U.S. as well.
    How much is that--could you comment on how social media is 
being used in those areas and what Israel might be doing to try 
and counter that, since it remains our greatest threat here at 
home as well?
    Mr. Makovsky. I'll just throw in--maybe my colleagues have 
thoughts. I talked to the premier Palestinian poster, Khalil 
Shikari--maybe known to some of you--based in Ramallah.
    He told me 86 percent of Palestinian teenagers--probably no 
different than in this country, I should say--get their news 
from social media.
    I see this as a huge issue, which is Arab social--
Palestinian social media. We know a lot of 15-year-olds refer 
to their going on social media as--it might be the final 
trigger for them in terms of doing their lone wolf attacks.
    Of course, there are deeper reasons, I'm sure. But I think 
it's very serious. I mean, it just--it's striking to me that 
the start-up nation of Israel that knows during the Gaza war if 
someone's on a fourth floor walk-up in Gaza and Israel has this 
knock on the roof program, which is you're on the fourth floor 
walk-up but Israel is going to tell you they're about to hit 
this building--go a few blocks away.
    First of all, I don't know too many armies that would give 
such advance notice but Israel does it. But if they could find 
the kid on the fourth floor walk-up and send him a text message 
in Arabic during a war there's got to be a way to use this 
start-up nation to reach more conciliatory messages on--in 
Arabic media.
    I think this is a real challenge and I think you're very 
correct in putting your finger on, I think, a key venue of this 
issue--effort against stabbings, which is need to work on the 
Arabic social media.
    Mr. Keating. Do you see anything with BDS and networking 
that surrounds that that could be also something of a threat to 
Israel in terms of beyond just their divesture attempts but 
other means of expanding that, that being a threat for itself?
    I know in 16 states and localities there's already anti-BDS 
legislation but how effective has it been to date in terms of 
hurting Israel as well as do you see any way of collaboration 
with that effort and incorporating social media? I've left you 
1 second. I'm sorry. Anything you could add.
    Mr. Makovsky. It should be said that BDS and with all these 
campus resolutions not a single American university has 
divested from Israel.
    So sometimes we need to remember that as well, that it has 
not yet happened. But it's a question of a certain mood that's 
set, an effort to try to compare Israel to an old South Africa, 
to invoke some of these old campus battles, and I think the 
only way to compete with this----
    I was just at Ohio State the night before a big BDS vote, 
meeting with Ohio State student senators and my approach, and 
people on this panel know me, is that the only way to, you 
know--the important thing is to do practical co-existence and 
there are a lot of organizations out there that does people to 
people.
    I know there's a group here in Washington with an umbrella 
of, like, 90 different people-to-people groups. There's a 
need--students want to do practical co-existence.
    I think you need to look for ways that bring campuses, 
student groups together and do not rip the community apart over 
something that is divisive, counter productive and just wrong.
    And so I think we should be accentuating the positive 
rather than focusing, I mean, on the negative. You should warn 
against the negative but, you know, you should focus on things 
that could be effective in building bridges of co-existence.
    There are a lot of groups out there that are doing that 
practical work and I think students that go on alternative 
spring breaks and other sorts of activities to do this can do 
it in this Israeli-Palestinian sector as well.
    Mr. Keating. Okay. Thank you.
    Mr. Poe. I thank the gentleman for his questions.
    The Chair recognizes the gentlelady from Florida, the 
chairman of the Middle East Subcommittee, for her comments, 
questions and answers.
    Ms. Ros-Lehtinen. Thank you so much, Judge Poe.
    Last week, our Middle East Subcommittee had Assistant 
Secretary Patterson and we asked her about the status of the 
MOU negotiations. She said this administration might not secure 
an agreement before the term is up and we're seeing reports 
just today that the administration is about to approve sales of 
fighter jets to Qatar and Kuwait which will, of course, worry 
the Israelis, as this is set to erode its qualitative military 
edge, and continued U.S. assistance to Israel is so critical to 
ensuring that the Jewish state can protect herself against the 
threats that we're talking about today, and I'm sure that many 
of you would agree that this sends a troubling signal to Israel 
and to those who seek to do her harm.
    Those are the ones who really receive these signals and for 
us to preclude the MOU and have a strong MOU that would send a 
very strong message of support to Israel. So I hope that this 
administration does that, and maybe we'll talk about it if we 
have time.
    But Dr. Schanzer, I wanted to give you an opportunity to 
elaborate on the great research that you have done. You mention 
in your testimony that Treasury has not made a domestic 
designation of a charity for supporting terrorism since 2009.
    And we have all of these terror threats in our homeland and 
I find that surprising. You're looking into the financial 
networks of some domestic entities that operate in support of 
the BDS campaign, and I thank you for that.
    What can you tell us about their donor networks and their 
corporate structure and what does it--what does it say to you 
about no new designations?
    Do you think that Treasury has been successful in stopping 
illegal fundraising in the U.S. and that's why there have been 
no new designations?
    Would you say that there seems to be a shift in U.S. policy 
from this administration in recent years and that makes it more 
difficult for our agencies to pursue domestic terrorism 
financing. And I'd like to give you the remaining time.
    Mr. Schanzer. Thank you, Madam Chairman.
    On the question of Treasury designations, all I can tell 
you is anecdotally when I speak to former Treasury colleagues 
my understanding is that they don't look at these issues any 
longer. This may be something that is linked to this 
administration. It also could just be a shifting of the mission 
of Treasury.
    So I think I would be careful to say that this is 
politically motivated. My understanding is that the FBI should 
and is still looking at domestic terror finance.
    And so whenever we look at these illicit finance questions 
I think there's probably a team of people who should be looking 
at it. But I think it might be an interesting question to ask 
the Treasury whether this is still their mission or not.
    As for the corporate structure of the groups that I talked 
about today, it's a very interesting structure in that there is 
a 501(c)(3) which is transparent. That's the Americans for 
Justice in Palestine.
    They file 990s. They are the fiscal sponsor for this group 
AMP, which I described in detail today. AMP is a corporate 
nonprofit which it's my understanding that this is supposed to 
be a temporary status for an organization on its way to being a 
full 501(c)(3). They have not made that jump, and so I'm 
curious as to why they have not done so. And as I mentioned, 
AMP appears to be the organization that's giving a lot of the 
assistance to Students for Justice in Palestine, the campus-
based groups.
    They're the ones who hand the apartheid walls and they 
provide the speakers and printed material. They give a lot of 
guidance. They have a campus coordinator that works with SJP. 
So it's a very interesting corporate structure. I encourage you 
to take a look into that.
    And then as for donor network, I can tell you that we have 
looked into it. I deliberately chose not to include it in our 
discussion today. As you know, the environment for Islamic 
charities has not been an easy one.
    I think there are a lot of Muslim Americans out there who 
are very scared of contributing to charities that may be 
involved in terrorism. I didn't want to list them. I'm happy to 
provide them to you offline.
    But the bottom line here, from my perspective, is is that 
when you look at an organization like AMP and they have 
individuals who have previously worked for charities that have 
either been designated by the U.S. Government, that they have 
been dissolved by the U.S. Government or found civilly liable 
in a Federal court, you would think that this would be 
something that they disclosed to their donors and I am not sure 
that they have done so. I think that that is a matter of 
significant concern.
    Ms. Ros-Lehtinen. That they're mandated to do or should 
they be mandated to do?
    Mr. Schanzer. It's my understanding that there is no watch 
list, so to speak, and I'm not suggesting that we have one. But 
I do think that disclosure of that past activity would be 
incredibly important to donors who are contributing to these 
charities so that they know what they're getting into.
    They know that they could be running into problems later on 
down the line based on the past experiences of these 
individuals.
    Ms. Ros-Lehtinen. Thank you so much for such great 
research.
    Thank you, Mr. Chairman.
    Mr. Poe. The Chair recognizes the ranking member, Mr. 
Deutch from Florida.
    Mr. Connolly. Thanks, Mr. Chairman.
    Dr. Wittes, you spoke about--you referenced the attacks 
against Egypt in your testimony and it's clear that Israel 
finds herself sharing many of the same security concerns as 
many of the Arab states in the neighborhood.
    Are there ways--and the idea comes up from time to time--
but are there tangible ways that these countries can work 
together to counter mutual threats, both Israel with those 
countries that--where there are peace agreements in place and 
perhaps even those countries where there are shared interests 
but not formal peace agreements?
    Ms. Wittes. Absolutely, Congressman Deutch. I think that 
there are two key avenues and we see some activity along both 
these lines already underway.
    The first is countering Iran and Iran's destabilizing 
activities around the region. This is the interest that has 
drawn Israel and a number of Arab states closer together over 
the past year than I think they have ever been before, and it's 
an interest that I think will be sustained into the future. 
It's not a short-term problem.
    So there is a lot of quiet conversation and information 
sharing. What there is not is kind of overt cooperation along 
these lines. But since a lot of this Iranian activity is below 
the radar, that kind of information sharing can be absolutely 
crucial.
    The second avenue is stabilizing key front line states and 
those include states that have peace treaties with Israel, most 
particularly Jordan but Egypt as well. We know, of course, the 
Gulf States have been important supporters financially and 
diplomatically and politically of both Jordan and Egypt and 
that is absolutely crucial for both of those governments. I 
think Israel continues to keep an eye on Jordanian stability. 
And then additionally, there is the question of diplomatic 
negotiations ending the civil war in Syria. Israel is not at 
the table. It's not in the room. But many of the Sunni Arab 
states are, and that's an additional opportunity for 
cooperation.
    Mr. Connolly. Thank you very much.
    Mr. Makovsky, I want to return to your topic of tough love. 
There are some who might suggest that the Vice President's 
expression of overwhelming frustration with Israel might 
constitute tough love from the United States. Do you agree?
    Secondly, if that is so, what is the kind of tough love 
that you would like to see by our European friends with respect 
to the Palestinians and, frankly, the kind of tough love that 
perhaps we should expect and administer her as well?
    Mr. Makovsky. Thank you, Congressman.
    I want to be clear. By the way, on the last point about 
Ohio State, the BDS advocates lost the vote. So the anti-BDS 
forces won, if I didn't make that clear.
    When I spoke about tough love, I was not talking as an 
advocate of it. I'm saying the same Europeans who call for 
tough love of the U.S. toward Israel are not willing to 
administer that when it comes to their own relations with the 
Palestinians. That was the context of my remarks.
    For example, when the President of the United States 
delivered two speeches in May 2011 where he talked about 
returning to the '67 borders plus swaps land exchanges, there 
is no--there has not been an Obama speech equivalent out of 
Brussels or London or Berlin or Paris saying, and you 
Palestinians, when it comes to refugees you return to the state 
of Palestine, not to Israel. That would be very important if 
the Europeans would do that. Or if they would say that, you 
know, that the aid to families of suicide bombers is 
reprehensible or saying anti-normalization runs against the 
very spirit of peace--we want you to encourage more people-to-
people exchanges.
    These are things the Europeans can do that would make the 
difference, and whatever is not said publicly I am concerned 
will not be heard on the Palestinian side. I think the 
Europeans can--could say it but they've never been really 
prodded to do so.
    Mr. Connolly. Is there--is there an opportunity to prod--I 
throw this out to Dr. Rubin and Dr. Schanzer--is there an 
opportunity--wouldn't it be appropriate to prod the Europeans 
to do exactly that now, even as we work under the Iran nuclear 
deal to make it easier for them to develop additional business 
in Iran?
    Not that--not that they're linked but given the successes 
that they're seeing under the nuclear deal the ability to make 
further investment in Iran and the way in which the deal--
nuclear deal--encourages that, shouldn't we also be in a 
position to remind them that at the same time the threats that 
Iran poses in the region get in the way of peace, and also 
standing in the way of peace are the kinds of things that Mr. 
Makovsky just spoke about and it would be helpful for them to 
say that clearly?
    Mr. Schanzer. Congressman Deutch, I think there--that we 
have some frank discussions that we need to be having with the 
Europeans right now.
    They're obviously very eager to reignite the financial 
relationships with Iranian businesses. First of all, and I 
think we've made this clear at FDD, that we are very concerned 
about the United States facilitating those through dollar 
transactions.
    We have said time and again that this is not a good idea to 
allow Iran access to our financial system in any way despite 
the European request to do so and we think that it should be--
we should continue to hold the line on that.
    More broadly, I think the Europeans have not exactly played 
the role that we've looked for on the Iran deal or with regard 
to the Palestinian-Israeli conflict. The Europeans right now 
are mulling a resolution to pressure the Israelis through a 
multilateral decision-making process for how to solve the 
Palestinian-Israeli conflict.
    I can't think of anything that would be more detrimental to 
Israel's long-term survivability than to have something akin to 
the P5+1 make a decision on how Israel should cede territory in 
the future to a state that is possibly not viable.
    So I think these are the sorts of discussions that we need 
to be having with the Europeans both about Iran transactions as 
well as what they're doing at the U.N. Neither have been 
terribly productive.
    Mr. Connolly. Thank you very much. Thank you, Mr. Chairman.
    Mr. Poe. The Chair recognizes the gentleman from Texas, Mr. 
Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    Dr.--is it Schanzer? Is that how you say that? Earlier in 
your comments you said, I think, we've been battling with 
radical Islam since 9/11. What do you think about the prior 
attacks starting in '79, Yemen, the bombing of the Cole, the 
U.S. Marine barracks and I can go--the prior--I mean, what 
about those?
    Mr. Schanzer. You're absolutely right, Congressman Weber. I 
meant that we were--we've been battling over it in this country 
the debate over what to call it since 9/11. But in fact----
    Well, some of us haven't been.
    Mr. Schanzer. Fair enough. But to your point, absolutely 
we've been dealing with radical Islam from the Islamic Republic 
since 1979----
    Mr. Weber. Okay. Okay.
    Mr. Schanzer [continuing]. The Muslim Brotherhood since the 
1920s.
    Mr. Weber. I just want to make that point, and you can even 
go back further than that.
    But Mr. Makovsky--is that how you say that? You also said 
that Israel learned, in your exchange with Bill Keating, in 
1982 that they can't socially engineer an Arab state. Would you 
explain that?
    Mr. Makovsky. What I meant is 1982 Israel thought that it 
could decide who was going to be the next leader of Lebanon, a 
guy by the name of Bachir Gemayel, and that whole experience 
ended in calamity.
    So I think they very--you know, in terms of their interest 
they are very keen in terms of where they could succeed and 
where they cannot succeed.
    Mr. Weber. Okay. I just--I'm sorry, I just wasn't familiar 
with that date. Didn't know what you were referring to. And 
then you also said Israel knocks on a roof in the social media 
battle.
    You indicated that if they can find that 12-year-old kid on 
the fourth floor they should be able to--but I would offer that 
social media is a relatively new phenomenon in that--at that 
level--Twitter and all that stuff the last, I don't know, 2 or 
3 years--I'm dating myself--maybe longer than that. But some of 
these kids get indoctrinated to hate Jews since the time 
they're two or three or younger. Is that accurate?
    Mr. Schanzer. Yes, that is accurate.
    Mr. Weber. So how do you combat that?
    Mr. Schanzer. That's why you--the focus on the Palestinian 
incitement piece of this is important. I mentioned about, you 
know, this idea of removing--fighting against--once the United 
States law kicked in I think in 2014 saying that the U.S. will 
not give money to entities that give money to relatives of 
suicide bombers.
    Some of this money was moved offline through the PLO as 
opposed to the Palestinian Authority--the Palestinian 
Liberation Organization, whose income is murky but Abbas is the 
head of both.
    And so there needs to be sure that the signalling is that 
there's no money to suicide bombers and we're promoting 
normalization between peoples. The signalling has got to come 
from the top. I agree with--I think it was Congressman Ros-
Lehtinen on that--that there has to be clear signalling.
    Now, Abbas has gone on Israeli television in the last 
couple weeks and said that he's against these knives--these 
stabbings and it's true that the PA--and this was reported in 
Defense News--I happened to be sitting with a senior Israeli 
security official who says it's true--quoting the head of 
Palestinian intelligence saying that they have disrupted 200 
attacks.
    They have confiscated knives from the school. They have 
plainclothesman now at border crossings, you know, to 
confiscate knives.
    So there's a multi-pronged effort here that's needed. 
There's no silver bullet.
    Mr. Weber. Right. I get that. I just want to make that 
point, then I want to move on.
    I think--back to you, Dr. Schanzer, you also said that the 
secretary--the Treasury no longer looks at designations for 
those who are supporting terrorism--that Americans--some of the 
Muslim are afraid to give to charities because they might--it 
might be a terroristic charity and some of those charities are 
civilly liable.
    You said something--are there no criminal sanctions in 
place, laws that say if you give to a terrorist organization 
contra U.S. laws that you are criminal--you can be charged with 
a crime?
    Mr. Schanzer. No, sir. We do have an executive order. It's 
Executive Order 13224. This was the authority that I worked 
under at the Treasury when I was a terrorism finance analyst 
and the distinction that I was drawing was that back when I was 
at Treasury and before we had quite a track record of going 
after domestic entities that were involved in financing 
terrorism--so-called charities that were involved in that 
activity.
    Mr. Weber. But that's criminal, is it not?
    Mr. Schanzer. Well, it's actually under a different order. 
It's beyond criminal. I mean, it's considered--you know, it's a 
terrorist act.
    Mr. Weber. And let me just note for the record the judge 
laid out a whole bunch of organizations that were pretty much 
anti-Israel but he left out the U.N. I just want to make that 
distinction.
    Let me move on. Dr. Wittes--is that how you say that--you 
said to stabilize the front line states that have peace 
treaties with Israel. Who are they and rank them in order.
    Ms. Wittes. Rank them in importance?
    Mr. Weber. Yes, ma'am.
    Ms. Wittes. I think the most important front line state for 
Israel is Jordan. It is the bulwark for Israel against the 
Islamist radicalism of ISIS and other groups to the east, and 
for a long time it was Israel's land bulwark against an army 
invasion.
    I think that the Jordanian-Israeli peace treaty and the 
Egyptian-Israeli peace treaty are strong. They are maintained 
by both sides because they are in both sides----
    Mr. Weber. Okay. I'm out of time, technically. Who are the 
next ones? Just give me three or four of them.
    Ms. Wittes. Well, the only treaties that Israel has with 
its neighbors are with Jordan and Egypt.
    Mr. Weber. All right. Thank you very much.
    Mr. Chairman, thank you. I yield back.
    Mr. Poe. I thank the gentleman.
    I thank all of you all for being here. Without objection, 
the map that was furnished to you and all the Members of 
Congress be made a part of the record.
    Dr. Schanzer, you made some comments about you would give 
us information in a different setting. The good lady from 
Florida made a comment about we will follow up in that because 
we want that information as well, and Members of Congress may 
have written questions they will submit to you. We would expect 
them answered and returned to the Chair.
    Thank you all for being here. The subcommittees are 
adjourned.
    [Whereupon, at 3:13 p.m., the hearing was concluded.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

				[all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
